U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Garland v. Aleman Gonzalez, No. 20-322
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in this case on August 23, 2021.
Petitioners’ opening brief on the merits is currently due on October 7, 2021.
In order to accommodate scheduling difficulties and the press of other cases, petitioners
respectfully request, under Rule 30.4 of the Rules of this Court, an extension to and including
October 14, 2021, within which to file the opening brief and joint appendix. Counsel for
respondents consents to that request and, for similar reasons, seeks an extension of time for the
filing of respondents’ brief to and including November 22, 2021. Petitioners consent to that
request.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-0322
GARLAND, MERRICK B., ATTORNEY GENERAL,
ET AL.
ESTEBAN ALEMAN GONZALEZ, ET AL.

MATT ADAMS
NORTHWEST IMMIGRANT RIGHTS PROJECT
615-SECOND AVENUE
SUITE 400
SEATTLE, WA 98104
206-957-8611
MATT@NWIRP.ORG
MATTHEW H. GREEN
LAW OFFICES OF MATTHEW H. GREEN
130 W. CUSHING STREET
TUCSON, AZ 85701
520-882-8852
MGREENH@AZBAR.ORG
LAWRENCE J. JOSEPH
IMMIGRATION REFORM LAW INSTITUTE
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
MICHAEL KAUFMAN
ACLU FOUNDATION OF SOUTHERN
1313 WEST 8TH STREET
LOS ANGELES, CA 90017
MKAUFMAN@ACLUSOCAL.ORG

JUDAH LAKIN
VAN DER HOUT LLP
180 SUTTER STREET
FIFTH FLOOR
SAN FRANCISCO, CA 94104
JUDAH@LAKINWILLIE.COM
ALISON PENNINGTON
CENTRAL LEGAL DE LA RAZA
3400 E. 12TH STREET
OAKLAND, CA 94601
VASUDHA TALLA
ACLU FOUNDATION OF NORTHERN
39 DRUMM STREET
SAN FRANCISCO, CA 94111
BARDIS VALKILI
ACLU FOUNDATION OF SAN DIEGO
PO BOX 87131
SAN DIEGO, CA 92138-7131

